         Office Of Inspector General




November 16, 2005

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:      Transmittal of Audit Report – Postal Service Officers Travel and
              Representation Expenses for Fiscal Year 2005
              (Report Number FT-AR-06-003)

This report presents the results of our audit of the Postal Service officers travel and
representation expenses for fiscal year 2005 (Project Number 05BM005FT000). We
conducted the audit in response to the Board of Governors policies and procedures
requiring annual audits of officers travel and representation expenses.

Postal Service officers incurred $1.3 million in travel and representation expenses for
the fiscal year ended September 30, 2005. Our audit disclosed that, based on sample
results, these expenses were properly supported and complied with Postal Service
policies and procedures. Our audit does not provide absolute assurance of the absence
of fraud or illegal acts due to the nature of evidence and the characteristics of such
activities. The results of the audit were discussed with Postal Service management on
November 8, 2005. Because there were no recommendations provided, management
chose not to respond to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
Director, Financial Statements, or me at (703) 248-2300.

   E-Signed by Inspector General
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Acting Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: Lynn Malcolm
    Vincent H. DeVito, Jr.
    Margaret A. Weir
    Steven R. Phelps
Postal Service Officers Travel and Representation                                                    FT-AR-06-003
 Expenses for Fiscal Year 2005


                                            INTRODUCTION
Background                       The Postal Reorganization Act of 1970, as amended,
                                 requires annual audits of the Postal Service’s financial
                                 statements. As part of these audits, the Board of Governors
                                 adopted policies and procedures that require annual audits
                                 of officer travel and representation expenses.

                                 Postal Service officers shape the strategic direction of the
                                 Postal Service by setting goals, targets, and indicators within
                                 the framework established by the Postal Service’s Board of
                                 Governors. Their positions are classified as Postal Career
                                 Executive Service II and include the Postmaster General,
                                 Deputy Postmaster General, and all vice presidents. The
                                 Board of Governors has authorized 50 Postal Service officer
                                 positions.

                                 Postal Service officers are reimbursed for actual expenses
                                 incurred on official travel. They are also reimbursed for
                                 representation expenses incurred with customer, industry, or
                                 employee groups with whom the Postal Service conducts
                                 official business.

Objective, Scope,                Our audit objective was to determine whether travel and
and Methodology                  representation expenses claimed by Postal Service officers
                                 were properly supported and complied with Postal Service
                                 policies and procedures.

                                 To accomplish our objective, we statistically selected and
                                 reviewed 56 of 1,063 electronic travel reimbursements
                                 covering expenses incurred during fiscal year (FY) 2005.
                                 We also judgmentally selected two additional electronic
                                 travel reimbursements.1 The Postmaster General issued
                                 Postal Service officers travel expense guidelines on
                                 November 8, 1999, and updated them on June 14, 2001.
                                 We used these guidelines as our criteria in evaluating
                                 reported expenses.

                                 We conducted this audit from October through
                                 November 2005 in accordance with generally accepted
                                 government auditing standards and included such tests of
                                 internal controls and accounting records, and other auditing

1
  The 58 travel reimbursements reviewed totaled about $66,000, and the total amount for the 1,063 travel
reimbursements was $1.3 million.




                                                             2
Postal Service Officers Travel and Representation                                  FT-AR-06-003
 Expenses for Fiscal Year 2005


                               procedures, as we considered necessary. Our tests of
                               controls were limited to those necessary to achieve our audit
                               objective. Our procedures were not designed to provide
                               assurance on internal controls. Consequently, we do not
                               provide an opinion on such controls. We discussed our
                               observations and conclusions with management officials and
                               included their comments where appropriate.

                               We performed specific internal control and transaction tests
                               on the e-Travel system data to provide assurance Postal
                               Service personnel properly entered and approved the data.

Prior Audit Coverage           We have audited Postal Service officers travel and
                               representation expenses since FY 1998 and have not
                               identified any reportable conditions. We disclosed the
                               results of our most recent audit for FY 2004 in our report,
                               Postal Service Officers Travel and Representation Expenses
                               for Fiscal Year 2004 (Report Number FT-AR-05-003, dated
                               December 20, 2004).




                                                    3
Postal Service Officers Travel and Representation                                                       FT-AR-06-003
 Expenses for Fiscal Year 2005


                                           AUDIT RESULTS
Audit Results                      Based on the sample results, travel and representation
                                   expenses totaling $1.3 million, incurred by officers of the
                                   Postal Service for the fiscal year ended September 30,
                                   2005, were properly supported and complied with
                                   established Postal Service policies and procedures.2 Our
                                   audit does not provide absolute assurance of the absence
                                   of fraud or illegal acts due to the nature of evidence and the
                                   characteristics of such activities.

Management’s                       The results of the audit were discussed with Postal Service
Comments                           management on November 8, 2005. Because there were
                                   no recommendations provided, management chose not to
                                   respond to this report.

Evaluation of                      No action by management was required.
Management’s
Comments




2
  The sample results returned zero deviations. The upper error limit on these results is 5 percent and meets the
tolerable error planned. There is a 95 percent chance that the true deviation rate in the population does not exceed
the tolerable deviation rate of 5 percent. Since the results meet our design criteria, we conclude that the submitted
vouchers were properly supported and complied with established Postal Service policies and procedures.




                                                               4
